<html>
<title> - ACCESSING SUPPORT: HOW THE VIOLENCE AGAINST WOMEN ACT SERVES HAWAII MILITARY FAMILIES EXPERIENCING DOMESTIC VIOLENCE</title>
<body><pre>[Senate Hearing 113-846]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-846

                       ACCESSING SUPPORT: HOW THE
                       VIOLENCE AGAINST WOMEN ACT
                    SERVES HAWAII MILITARY FAMILIES
                     EXPERIENCING DOMESTIC VIOLENCE

=======================================================================

                                 HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 16, 2014

                               __________

                            HONOLULU, HAWAII

                               __________

                          Serial No. J-113-74

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
                             U.S. GOVERNMENT PUBLISHING OFFICE
21-222 PDF                          WASHINGTON : 2017                             
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89eef9e6c9eafcfafde1ece5f9a7eae6e4a7">[email&#160;protected]</a>  
 
        

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              

                      OCTOBER 16, 2014, 10:02 A.M.

                     STATEMENT OF COMMITTEE MEMBER

                                                                   Page
Hirono, Hon. Mazie, a U.S. Senator from the State of Hawaii......     1

                  STATEMENTS OF CONGRESSIONAL MEMBERS

Hanabusa, Hon. Colleen, a Representative in Congress from the 
  State of Hawaii................................................     4
Schatz, Hon. Brian, a U.S. Senator from the State of Hawaii......     3

                               WITNESSES

Witness List.....................................................    33
Arincorayan, Colonel Derrick, Deputy Director, Department of 
  Behavioral Health, Schofield Barracks Health Clinic, United 
  States Army Hawaii, Schofield Barracks, Hawaii,
    prepared joint statement.....................................    34
Kreidman, Nanci, Chief Executive Officer, Domestic Violence 
  Action Center, Honolulu, Hawaii................................    20
    prepared statement...........................................   110
Lopes, Marci, Executive Director, Hawaii State Coalition Against 
  Domestic Violence, Honolulu, Hawaii............................    21
    prepared statement...........................................   112
Louie, Hon. David, Attorney General, State of Hawaii, Honolulu, 
  Hawaii.........................................................     9
    prepared statement...........................................    47
    attachment I to prepared statement...........................    50
    attachment II to prepared statement..........................   107
Morita, Cindy, Family Advocacy Program Manager, United States 
  Army Hawaii, Schofield Barracks, Hawaii........................     7
    prepared joint statement.....................................    34
Ogden, Dawn, Counseling and Advocacy Program Supervisor, Joint 
  Base Pearl Harbor-Hickam, Pearl Harbor, Hawaii.................     8
    prepared statement...........................................    42

                       SUBMISSION FOR THE RECORD

Baker, Hon. Rosalyn H., Senator, Hawaii State Senate, statement..   116

 
                       ACCESSING SUPPORT: HOW THE
                       VIOLENCE AGAINST WOMEN ACT
                    SERVES HAWAII MILITARY FAMILIES
                     EXPERIENCING DOMESTIC VIOLENCE

                              ----------                              


                       THURSDAY, OCTOBER 16, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m. in
Room 325, at the Hawaii State Capitol, 415 South Beretania 
Street, Honolulu, Hawaii, Hon. Mazie Hirono, presiding.
    Present: Senator Hirono.
    Also Present: Senator Schatz and Representative Colleen 
Hanabusa.

            OPENING STATEMENT OF HON. MAZIE HIRONO,
            A U.S. SENATOR FROM THE STATE OF HAWAII

    Senator Hirono. Good morning. This hearing of the Senate 
Judiciary Committee will come to order. Before we begin, I 
would like to go over the Committee's rules regarding our 
hearings. Today's hearing deals with a serious issue. And I 
know that members of the public will act accordingly.
    And I want to note at the outset that the rules of the 
Senate prohibit outbursts, clapping, or demonstrations of any 
kind. This includes blocking the view of people around you. So, 
please be mindful of these rules. And I know this is not going 
to be necessary, but if such events occur, then the person will 
be asked to leave.
    I am glad to be joined by my colleagues, Senator Brian 
Schatz and Congresswoman Colleen Hanabusa, at this hearing.
    I would like to start with an opening statement. And I will 
ask my colleagues if they would also like to present opening 
statements before we take our first panel. Thank you.
    Twenty years ago on September 13, 1994, a Violence Against 
Women Act, better known as VAWA, was signed into law. And VAWA 
represented a major shift in the way Congress approached the 
issue of domestic violence. With this enactment, Congress 
acknowledged a Federal rule in recognizing that domestic 
violence is not a private matter to be kept among family and 
suffered in silence. It is a crime and should be treated as 
such.
    VAWA recognized that domestic violence is a complicated, 
multi-faceted crime that defies easy solutions. The root causes 
of domestic violence are varied. It could include a stressor 
such as age, a history of family violence, and a large number 
of social economic factors. To address this fact, VAWA looked 
to prevent domestic violence and related crimes by encouraging 
collaboration among law enforcement, the judiciary, and both 
public and private sector service providers. As part of our 
ongoing commitment to ending domestic violence, Congress has 
reauthorized VAWA three times since 1994.
    I have supported domestic violence legislation since first 
taking elected office more than 30 years ago and am proud that 
one of the first major bills that I co-sponsored and worked on 
as a Senator was the 2013 VAWA reauthorization. I co-sponsored 
that bill which focused on expanding VAWA protection and 
services to better serve Indian country, the LGB community, and 
protecting women regardless of immigration status.
    After 20 years, therefore, more people are able to seek 
VAWA protection and more services are available to meet the 
needs of distinct community and populations than when first 
enacted. But, work remains. Every year on the anniversary of 
VAWA's passage, the national network to end domestic violence 
conducts account of adults and children served by domestic 
service providers all across the country.
    As a snapshot, on September 17, 2013, nearly 70,000 people, 
including 575 from Hawaii, sought such services. Still, while 
service providers helped nearly 70,000 people that day, there 
were still nearly 10,000 men and women who sought services 
whose needs were not met. There are also populations that VAWA 
does not cover.
    One community that has been largely removed from the VAWA 
conversation is the military, our active duty personnel and 
their families. That does not mean the military men and women 
go unserved. In fact, for many years, the Department of 
Defense's Family Advocacy Program or FAP and other support 
services have provided military victims with assistance. These 
programs work with perpetrators and their military command to 
prevent domestic violence and enforce appropriate consequences.
    We know that the military population faces different 
challenges than the population at large. Females who are 
between 20 and 24 years of age are at the greatest risk of non-
fatal, intimate partner violence.
    In 2012, nearly one-half of active duty personnel, military 
personnel, were under the age of 25. And while this should not 
be taken to indicate higher instances of domestic violence in 
the military, the age factor is worth noting.
    There are also emotional and psychological stressors that 
military and their families experience that are not shared by 
the rest of us. Deployments, for example, present a specific 
type of long-term absence from home.
    The transition back to civilian life after deployment is 
also challenging, particularly for those who have been in 
combat. These are just two possibilities--two possible 
contributing factors to potential domestic violence in the 
military. And what we do know is that military-connected men 
and women do seek non-military provider services.
    During a two-week period in September of 2014, the Domestic 
Violence Action Center, DVAC, worked with 40 active duty 
personnel or intimate partners of active duty personnel who 
sought help. That is four people a day over a 10-day period. 
Active duty military and their families are a part of our 
community and they should be able to seek services when and 
where they feel most comfortable.
    Attorney General Louie has noted in his written testimony 
that VAWA's stakeholders have identified three priority areas 
for collaboration of services. The first two appropriately are 
providing enhanced training for first responders and improving 
outreach to underserved populations. The third issue identified 
is addressing the need for services sought by military-
connected men and women.
    To this end, I anticipate expanding upon the Attorney 
General's VAWA military working group efforts. The main 
question we want to answer today is not why military men and 
women are seeking services off base; rather, we are focusing on 
how best to address the needs of these men and women.
    Given the current Federal budget constraint, we must 
examine how our existing Department of Defense and VAWA 
resources can be used to ensure quality services for our 
servicemembers and their families, and how can we assure that 
there is a continuum of care, a safety net for men and women 
involved in abusive relationships, regardless of where abusive 
incident occurs, when it happens, or who employs those 
affected; as we gain a better understanding of the unique 
stressors that impact military personnel, how can we fit their 
specific needs into the program directive of VAWA.
    I believe the answer is through collaboration, which VAWA 
envisioned since it was first enacted, collaboration among 
State and local governments, service providers, and the 
Department of Defense. It will take a community-wide effort for 
us to eliminate this community-wide problem.
    Today's hearing is an opportunity to hear from the very 
stakeholders and strengthening the collaboration between 
civilian and military service providers to see where there is 
overlap and learn where collaboration can be fostered and 
improved upon.
    As a Member of both the Senate Armed Services and Judiciary 
Committees, I look forward to working with appropriate 
stakeholders to ensure that we do the best we can in both the 
military and civilian sectors to meet the needs, particularly 
today, of military-connected victims of domestic violence. We 
have two panels this morning, and I look forward to hearing 
from you.
    Now, Senator Schatz and Congresswoman Hanabusa, if you 
would like to provide opening statements, you may do so.

                STATEMENT OF HON. BRIAN SCHATZ,
            A U.S. SENATOR FROM THE STATE OF HAWAII

    Senator Schatz. Thank you, Senator Hirono. And I want to 
thank you for organizing a field hearing on such an important 
issue. Domestic violence is tragic and the damage it causes 
does not end with the victim. Violence hurts our families, our 
children, and communities.
    We have made progress in preventing domestic violence and 
supporting victims. Since the passage of VAWA in 1994, there 
has been a drop in domestic violence incidents by over 50 
percent. Last year, President Obama made history when he signed 
into law a stronger VAWA bill. And I am proud to say that all 
Members of Hawaii's Congressional delegation were co-sponsors 
of this legislation.
    The new law will help bring survivors of domestic violence 
out of the shadows to receive life-saving services. But, there 
is more to do. The national network to end domestic violence 
puts out an annual snapshot of how many victims are seeking 
help in each State in a 24-hour period.
    Hawaii's most recent snapshot was sobering. In one day, 
over 500 domestic violence victims were served in Hawaii. And 
domestic violence hotlines received over 100 calls from 
victims. That is more than five calls an hour. The focus of 
this hearing is on the support available to military-connected 
families that experience domestic violence.
    Domestic violence in military families is such a critical 
issue because it is a problem that seems to be getting worse. 
Even as incidents of domestic violence are going down across 
the country, domestic violence in military and veteran 
communities appears to be going up.
    The military provides many resources for victims of 
domestic violence, but there are challenges to addressing 
domestic violence in military families. Military families often 
live far from their friends and families, which makes them 
particularly socially isolated. They live with enormous stress 
from deployment, both while the servicemember is away and when 
they return.
    Victims also face a terrible choice in reporting domestic 
violence to the military. A report could mean risking the 
servicemember's career and the whole family's financial 
stability. For this reason, many victims feel more comfortable 
seeking support from community-based organizations.
    There is clearly a role for both military support services 
and community-based support. But, we need to ask whether 
military support services are adequately addressing the needs 
of victims. And we also need to look at whether VAWA's funding 
takes into account the reality that community-based 
organizations are part of the front line for military families 
experiencing domestic violence.
    I hope that this is the beginning of a dialogue between the 
Department of Defense and community-based domestic violence 
organizations about creating a collaborative and coordinated 
approach to preventing domestic violence in military families 
and supporting victims. Thank you.
    Senator Hirono. Thank you.
    Congresswoman Hanabusa.

    STATEMENT OF HON. COLLEEN HANABUSA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Representative Hanabusa. Good morning. I want to begin 
first by thanking Senator Hirono for convening this field 
hearing and also to Senator Schatz and all the panelists, 
distinguished guests, and everyone who made time to join us 
today.
    Domestic violence touches every corner of our community. It 
does not depend on race or income. It affects men, women, gay, 
straight. And while it has recently been the subject of talk 
about sports figures and police officers, we cannot let that 
distract us from the fact that it reaches across the spectrum 
of social and professional relations.
    We are here today to address how VAWA serves Hawaii's 
military families and basically how we are going to address the 
domestic violence. Now, before we begin that, we do have to 
kind of understand how VAWA came about. And Senator Hirono gave 
us the rundown, which is that it was in 1994. Actually, Vice 
President Biden is the one credited for the passage of the 
original VAWA. And it expired in the year 2011. It did not get 
reauthorized until just recently in 2013.
    It was a very interesting vote. Though Senator Hirono left 
us in the House and went to the Senate, she clearly understands 
the difficulty of a piece of legislation like this getting 
through the House of Representatives. It passed the Senate, 78 
to 22, and it passed the House, 286 to 136.
    Now, what you need--138. What you need to understand is of 
that, 87 Republicans joined the solid Democrats in passing VAWA 
in the House. What it meant was the importance of that issue. 
Because 87 Republicans in the House, for that to come to the 
floor, violated what they call their Hastert Rule, which meant 
the majority of the majority have to be in favor of a piece of 
legislation before it could be actually voted on. But, the 
concept and those issues that were contained in VAWA mobilized 
a portion of the Republican coalition that said this was too 
important, we have to do it. And that is how VAWA became law.
    And it did have major components. And one that helped build 
those coalitions, for example, the tribal aspects of it, gay 
and lesbian and immigration, all as mentioned by Senator 
Hirono. But, what it did was it managed to force the building 
of that coalition. And that is how we have VAWA today.
    We also must understand what it means in terms of what the 
purpose of it is. It is legal assistance, transitional housing, 
counseling support, advocacy. And what it is credited with with 
some statistics that have been used is that since its inception 
and about 15 years later, it reduced violence about 58 percent 
in 15 years. And I think they were measuring it primarily by 
weight, but there was some transition that was done in that.
    But, sadly, domestic violence affects your military 
families, which is the subject of today's hearing. And whether 
the victim of abuse is a member of the Armed Services or a 
family member, we owe it to her or him--and let there be no 
question that VAWA applies to both men and women, though we do 
call it Violence Against Women Act--because domestic violence 
knows no boundaries applied. And we need to help to provide a 
safe home. And we owe it to the abuser to also discover how do 
we break this cycle of violence.
    The most important first step is for us to bring the 
question out of the shadows by signing--by shining the light on 
the problem and acknowledging that it affects Hawaii's military 
families. And we need to speak open and have productive 
discussion about what we can do and must do.
    And that is why, as I look across from me and I see Nanci 
Kreidman, I know of no one who probably knows this issue as 
well as she does as to the Hawaii community. And she can 
probably give us what I consider to be the hidden facts about 
Hawaii's military, because Hawaii's military has always 
represented a special culture of their own. And I think that is 
probably been the reason why we have had such a difficulty in 
understanding, getting our hands on this particular issue.
    We are hoping that what these hearings will do is to bring 
this matter out and make it so that people can seek the help 
and the assistance that we need. So, we must make it a 
priority, with the health and safety of Hawaii's military's 
families as paramount. And I do look forward to participating 
in this conversation. Again, I thank you, Senator Hirono.
    Senator Hirono. Thank you very much, Senator Schatz and 
Congresswoman Hanabusa. I would like to now ask our first panel 
of witnesses to step forward and be seated.
    I would like to briefly introduce our first panel of 
witnesses. Colonel Derrick Arincorayan--did I pronounce that 
correctly?
    Colonel Arincorayan. Yes, ma'am.
    Senator Hirono [continuing]. And Miss Cindy Morita are here 
on behalf of U.S. Army Hawaii to share with us information 
about the services available to men and women connected with 
the military who are experiencing domestic violence.
    Colonel Arincorayan is a published researcher who serves as 
a Deputy Director of the Army's Behavioral Health unit in 
Hawaii. He has served with the Army for 28 years. He has a 
doctorate in clinical social work.
    His colleague Miss Morita serves as U.S. Army Hawaii's 
Family Advocacy program manager. She has a master's degree in 
social work and has worked on domestic violence issues in 
various States for a number of years. I look forward to hearing 
from both of you.
    Miss Dawn Ogden, the Counseling And Advocacy Program 
Supervisor at joint base Pearl Harbor-Hickam, which provides 
services for Navy and Air Force personnel and their families, 
has a master's degree in social work and has worked to provide 
clinical services in both the civilian and military sectors for 
a number of years. Miss Ogden has been with Joint Base Pearl 
Harbor-Hickam programs since 2001, and has been a supervisor 
since 2010.
    And I would like to take this time to acknowledge our 
military partners in the audience today, including CAPT. 
Neferet. Raise your--there you are. Thank you so much for 
joining us, representing Pacific Fleet. Theresa Phillips, who 
is representing Navy Region Hawaii, and the staff representing 
Joint Base Pearl Harbor-Hickam. There are a number of staff 
people here. Thank you.
    Additionally, the Commander of the Schofield Health Clinic, 
Colonel Everhart, is here and staff representing Army Garrison 
Hawaii. Thank you all for being here.
    The Honorable David Louie has served as Hawaii's Attorney 
General since 2011. In that capacity, he oversees 175 deputy 
attorneys--I used to be one myself way back when--and provides 
legal counsel for the governor, legislature, and various State 
agencies.
    Among other things, the Attorney General's office receives 
the vast majority of Federal funding through the VAWA act and 
will share with us how VAWA funds have been allocated. And 
before we hear from this panel, though, I do need to swear you 
in. So, please rise and raise your hands.
    Do you affirm that the testimony you are about to give 
before the committee will be the truth, the whole truth, and 
nothing but the truth so help you God?
    Colonel Arincorayan. I do.
    Ms. Morita. I do.
    Ms. Ogden. I do.
    Attorney General Louie. I do.
    Senator Hirono. Please be seated. So, we are going to start 
with Colonel Arincorayan.
    Colonel Arincorayan. I will----
    Senator Hirono. Go ahead, Miss Morita.

  STATEMENT OF CINDY MORITA, FAMILY ADVOCACY PROGRAM MANAGER, 
              UNITED STATES ARMY HAWAII, SCHOFIELD
                        BARRACKS, HAWAII

    Ms. Morita. I would like to start off by giving a warm 
Aloha and thank you to Senator Hirono, Senator Schatz, and 
Congresswoman Hanabusa for this opportunity to speak at the 
Senate Judiciary hearing regarding Army Family Advocacy 
Program, which I will refer to as FAP.
    FAP is the Department of Defense social service program 
whose mission is to help address child abuse, child neglect, 
and domestic abuse affecting our military families. We provide 
primary, secondary, and tertiary provision services and 
clinical intervention.
    The Army's Hawaii footprint consists of approximately 
15,000 married active duty soldiers, with an average of 46 
percent living on post and 54 percent living off post.
    The United States Army FAP here in Hawaii is comprised of 
the following programs. FAP behavioral health provides 
assessment, treatment, clinical interventions at Tripler Army 
Medical Center and the Schofield Barracks health clinic. And 
Army community service FAP prevention provides education, 
support services, including parent support program and victim 
advocacy program.
    One of our goals is to ensure for every incident of 
domestic violence and child abuse, the families receive timely 
and appropriate care. Army Hawaii FAP has a surveillance 
initiative for families reporting verbal disputes to the 
military police. This initiative allows victim advocates and 
social workers to reach out early to potential victims of 
domestic violence.
    The reporting process also involves multiple processes 
which are triggered after a domestic violence incident is 
reported. FAP, child welfare service, law enforcement, and 
commanders may all be engaged and provide coordinated services. 
Commanders are mandated to report all child abuse and domestic 
abuse to the military police, who are then required to notify 
FAP for coordination and case management.
    FAP ensures victims have access to military and civilian 
resources that provide support and safety. Throughout the 
process, a victim advocate is available to assist victims with 
making a report, crucial safety planning, providing information 
on legal rights, and reporting options, and leading victim 
support groups. VA can also attend court hearings and law 
enforcement interviews. Our dedicated victim advocates provide 
24 hours, seven days a week responses and safety planning 
services.
    FAP Behavioral Health provides individuals counseling, 
couples and family counseling, domestic violence intervention, 
parent support, and healthy relationship groups. FAP also 
offers ongoing mandatory critical training for commanders, 
troops, professional and community members that addresses 
safety, education, spouse and intimate partner abuse, 
prevention, and family life education. We also offer numerous 
prevention activities and support, including new parent support 
program, home visits, and classes. We maintain relationships 
with external communities to help coordinate reporting and 
synchronized efforts.
    The United States Army Hawaii FAP also, along with our 
sister service leadership, has prioritized collaboration with 
each other and with our civilian partners through the military 
Family Advocacy Coordinating Council, comprised of military and 
civilian agencies, designed to facilitate the opportunity to 
network and create communications, share processes, identify 
challenges, and provide information and updates.
    One of the successful outcomes through this partnership 
included an agreement to provide notification between family 
courts and military services. The notification agreement 
increased our visibility on restraining orders and allowed us 
to reach out to victims in a timely manner. We know the sooner 
we can intervene, the better we can provide safety options for 
victims of domestic violence.
    We hope we were able to provide you an overview of the 
United States Army Hawaii FAP program. We would like to again 
thank you for the opportunity to share with you our process and 
also to extend our appreciation to Congress for its continued 
support of the family advocacy program that allows us to work 
with our military families and meet their needs. Thank you.
    [The prepared joint statement of Colonel Derrick 
Arincorayan and Cindy Morita appears as a submission for the 
record.]
    Senator Hirono. I apologize for my coughing, but I have a 
cold. I do not think I am giving anybody my germs for now. I 
think I am not contagious at the moment.
    Please go ahead, Miss Ogden. Thank you.

   STATEMENT OF DAWN OGDEN, COUNSELING AND ADVOCACY PROGRAM 
   SUPERVISOR, JOINT BASE PEARL HARBOR-HICKAM, PEARL HARBOR, 
                             HAWAII

    Ms. Ogden. Good morning, Senator Hirono, Senator Schatz, 
and Congresswoman Hanabusa. Thank you for the opportunity to 
address you today.
    My name is Dawn Ogden. I have been a clinical social worker 
with the Department of Navy for almost 18 years. I am honored 
to share information about the domestic violence services and 
programs provided at Joint Base Pearl Harbor-Hickam.
    I have worked with the Family Advocacy Program since 
starting with the Navy in government service in 1996. I have 
seen the commitment the Navy has to ending domestic violence as 
a clinician working directly with victims, offenders, and their 
children for my first 14 years, and now as a supervisor for 22 
staff members employed by Joint Base Pearl Harbor-Hickam as 
part of their family violence prevention and intervention 
programs, the services we provide to active duty Navy and Air 
Force members and their families. In addition, we serve 
commands, first responders such as military medical and law 
enforcement, and other military partners like child and youth 
programs, and military mental health.
    We also collaborate and coordinate services with community 
organizations and institutions such as Child Welfare Services, 
Domestic Violence Action Center, Honolulu Police Department, 
Women, Infant, Children, and many of our local schools, with a 
high number of the military dependents, to name just a few.
    We believe a coordinated community response is vital to 
effectively responding to domestic violence, and we are 
committed to enhancing opportunities for collaboration and 
building relationships. Again, thank you for this opportunity, 
and I look forward to being of service in today's hearing.
    [The prepared statement of Dawn Ogden appears as a 
submission for the record.]
    Senator Hirono. Thank you.
    Attorney General.

   STATEMENT OF HON. DAVID LOUIE, ATTORNEY GENERAL, STATE OF 
                    HAWAII, HONOLULU, HAWAII

    Attorney General Louie. Thank you, Senator Hirono. And let 
me thank the Committee for convening this hearing. My thanks to 
you personally, Senator Hirono, and also to Senator Schatz and 
also to Congresswoman Hanabusa for your leadership on this 
issue. It is of vital importance to both our State and our 
community here, as well as to the Nation.
    I have submitted written testimony. And I am not going to 
read it all to you. I know you are pleased at that. Let me just 
hit a couple of the highlights that I would like to note for 
this hearing.
    First off, I mean obviously, there is a domestic violence 
issue and problem here in Hawaii. My office tracks statistics 
on these matters through our Hawaii Criminal Justice Division.
    In 2013, there were 4,959 domestic violence-related 
arrests. Those are just arrests. This is a 13 percent increase 
over the last five years. In 2013, there were 8,750 victims 
that received assistance. This was a 16 percent decrease, which 
I think, you know, you never really know, but I think it 
reflects decreases in funding. It may reflect decreases in 
reporting and just changes in the way things happen.
    It is a problem. We all know it is a problem. And I am very 
pleased that you are spotlighting and convening this so that we 
can address the problem that the military shares with our 
community. This is not a military problem, it is not a Hawaii 
problem. It is a problem for all of us, and it crosses all 
lines, as Congresswoman Hanabusa noted.
    We have been so very fortunate. And I think I thank you 
folks for your roles in getting VAWA passed again. And I thank 
you so much. We have been in the forefront, helping to 
administer those grants here in Hawaii by a million dollars a 
year. And so every year, we have convened a group of 14 
representatives, including law enforcement, domestic violence, 
sexual assault, community providers, prosecuting attorney, 
police chiefs, Family Court judges, et cetera, to come together 
and figure out how are we going to distribute this money in the 
best way possible, given it is limited funds. And so we do that 
every year.
    And in general, we give 5 percent to the judiciary, 25 
percent to the police, 25 percent to prosecutor, and 30 percent 
to victims' services. There is also a 15 percent discretionary 
amount that we have always allocated that to victim services. 
So, we give 45 percent of the grant to victim services, 
believing that that is a very important area to go through.
    Now, what does my office do in this area? Obviously, I am 
the chief law enforcement officer of the State of Hawaii, but 
primarily, criminal matters and matters of domestic violence, 
sexual assault, things like that, we rely upon the Honolulu 
prosecutor and the prosecutors of all the counties, because 
basically all of that authority to prosecute those matters is 
delegated out to the various counties.
    But, in addition to helping to distribute the VAWA grants, 
about two years ago, Senator Schatz called me into his office 
and we had a meeting with I think Nanci Kreidman and others. 
There were other community providers. And what was raised was 
the lack, essentially, of a coordinated community response that 
there was not always good communication between the first 
responders, who many times would roll over. As they got 
promoted--you would help to train them, but as they got 
promoted, then there was not also the training for the next 
person coming into the position. People change positions, so 
relationships did not always get built.
    And so we looked at that and we thought, well, let us 
convene a group, since we already have the VAWA State planning 
committee. I put it to the planning committee, since we were 
already addressing our domestic violence issues, would they 
like to participate in a working group to address this 
coordinated community response, and the central question, which 
was posed by both Abraham Lincoln and Bill Bradley in his most 
recent book, how can we all do better. Okay.
    And so I was very pleased that the response was 
overwhelmingly positive by this group. We got together. It has 
been my great privilege and pleasure to serve in a capacity as 
convening this group. Over the last year, we have met six 
times. Law enforcement has come, the judiciary has come. There 
have been service providers that come, prosecutors, police, and 
it has really been a great conversation.
    Because one of the things is that by getting together and 
talking about these things and trying to identify issues and 
where do we have opportunities to collaborate, communicate, and 
cooperate, we were able to form relationships. And people were 
able to pick up the phone and talk to their counterparts. And 
that is such a huge thing, that I look forward to you folks and 
to our community and to the military to try and work in a 
collaborative fashion. Just the mere fact of getting together 
in this room alone and in meetings that we had, really helped 
to focus what people's--not only their issues but their 
challenges. Because it is one thing for, you know, someone to 
say, oh, you are not doing your job or you need to do a better 
job, but when you appreciate the fact that everybody is working 
under limited resources and that everybody wants to do a better 
job, you can figure out how to collaborate and not duplicate 
services.
    I really appreciate the opportunity to work with all of the 
people on our planning group. We focused, as you mentioned in 
your opening remarks, Senator, that we picked three areas. And 
the first one was a training for first responders, outreach to 
underserved community, and then addressing the growing need for 
services for the military.
    And I--that last piece is one that we have just started to 
promote and to work on. We have convened a subgroup to address 
that. And we were in the process of starting to figure out how 
we were going to reach out to the military. So, this is very 
convenient for us that you can foster----
    Senator Hirono. Great minds think alike.
    Attorney General Louie. There we go. I look forward to that 
conversation. And I think it is very important to have that 
conversation at multiple levels. That is, if only the staff are 
talking and only the line workers are talking, it is not 
enough. If only the top leaders are talking, that is not 
enough. We have to have engagement and discussion and continued 
discussion at all levels so that we can have this coordinated 
response and move forward together. I look forward to working 
with you folks on this, and thank you for the opportunity.
    [The prepared statement of Hon. David Louie appears as a 
submission for the record.]
    Senator Hirono. Thank you very much, Attorney General. And 
before we proceed to probably five-minute rounds of questions 
so that we will be able to possibly have multiple opportunities 
to ask questions, I would like to acknowledge the presence of 
Flo Nakakuni, our U.S. Attorney. Thank you so much for being 
here. Okay, I will start the first round of questions.
    Attorney General, you mentioned that in the three areas 
that you identified as need areas on this issue, that the one 
that we are focusing on today, of course, is collaborating with 
the military. And by the way, the password, the byword, really 
is coordinated community response. I think you will hear that a 
lot. That was, I believe, in the first VAWA, and it is all 
about bringing the stakeholders together.
    So, in your efforts, though, you said that you would like 
to have outreach to the military, so that means that you do not 
have a military representative or representatives on your 
working group at present?
    Attorney General Louie. That is correct.
    Senator Hirono. Now, Miss Morita, I think it would be very 
helpful for us to really understand the context in which 
domestic violence occurs. And so you have got experience in, 
quote, the private sector and the military side, working with 
these families, and can you share with us some of the common 
factors surrounding domestic violence.
    Ms. Morita. For civilian or military?
    Senator Hirono. Well, for both, because there are the 
common factors that overlay, and then we will get to some of 
the stressors--particular stressors that military families 
face.
    Ms. Morita. For specifically military?
    Senator Hirono. Well, for both, because of the common 
factors that overlay, and then we will get to some of the 
stressors, particular stressors that military families face.
    Ms. Morita. When you think about domestic violence, as the 
opening statement indicated, there are lots of different issues 
that impact military and civilian domestic violence victims.
    Senator Hirono. Miss Morita, could you speak into the 
microphone.
    Ms. Morita. As the opening statements indicated, we talked 
about how domestic violence crosses all barriers. And so when 
we look at domestic violence, some of the issues that we see 
are around finances, complex issues on mental health, all sorts 
of different issues. What we do see in the military is that our 
clients look very similar to domestic violence in all 
situations.
    Senator Hirono. Are there not some very specific stressors 
that military personnel face that may--that would not be faced 
by the civilian population?
    Ms. Morita. Absolutely.
    Senator Hirono. Which could inform how we provide services 
to them, especially as they seek services outside of the 
military context.
    Ms. Morita. Absolutely.
    Senator Hirono. Would you like to respond, Colonel?
    Colonel Arincorayan. Yes, ma'am. So----
    Senator Hirono. This is being recorded, by the way. Olelo 
is here, so we appreciate you speaking into the mic.
    Colonel Arincorayan. Yes, ma'am. I would like--in addition 
to what Miss Morita was stating is that, you know, we are 
unique in that, as you mentioned that in the opening statement, 
in terms of deployment, our operational tempo is high. As we 
move out of the deployment cycle into the training cycle, I 
still think it remains the same. The stressors are there, long 
hours, isolation, and lack of support, much like what you had 
mentioned early on. So, I think those are the key differences 
between the civilian and the military population.
    Senator Hirono. As long as you are responding, Colonel, the 
Army's testimony indicated various kinds of collaboration and 
MOUs. And my understanding is that these are with State 
agencies that you have these collaborative models, and MOUs.
    Ms. Morita. That is correct. We have two formal MOUs, one 
with the Child Welfare Service, as well as the Children's 
Justice Center.
    Senator Hirono. Are those State agencies?
    Ms. Morita. Yes.
    Senator Hirono. Since we have non-profit providers here, do 
you have any kind of collaboration with them?
    Ms. Morita. We do not have formal agreements, but we do a 
lot of informal partnerships. One of the things that actually 
all of our services do is that we are on different committees 
and meetings that we sit in to support and provide information, 
as well as we do referrals, and we do programs and activities 
together.
    Senator Hirono. So, is this in any kind of a formal way? Is 
there some kind of a group committee that you do this through?
    Ms. Morita. We do not have a formal group or committee, but 
what we do have is the military Family Advocacy Coordinating 
Council. And what that is is a program that is actually been 
around for numerous years, and I would like to say about 20 
years, approximately 20 years. And what we did is we got 
together. And it is something that we continue to meet all the 
different branches of services on it as well as the Coast 
Guard.
    We have civilian agencies that come and share information 
and resources. Some of them attend regularly, some we invite as 
we see trends in the community or friction points or things 
that we can get together to talk about, and different programs 
or our different needs that we are seeing.
    Senator Hirono. Do you think that perhaps a more formal 
kind of a group would be helpful to enhance and strengthen the 
collaboration between the civilian and the military provider 
community?
    Ms. Morita. We are also--you know, we certainly can look at 
anything that could enhance collaboration and us working 
together.
    Senator Hirono. Because the resources are getting actually 
less for a problem that defies easy solutions.
    Ms. Morita. We definitely want work together to ensure that 
we are providing the best services for our families.
    Senator Hirono. I definitely share your concerns. We 
definitely want to work together to make sure we are providing 
the best services for our families.
    Miss Ogden, you hosted me on a visit to your Pearl Harbor's 
Family Advocacy facility, and I thank you for that.
    Expanding on Miss Morita's response regarding some of the 
common factors that apply to domestic violence, whether it is 
happening in the military context or in the civilian context, 
could you elaborate on it a little more. I know that the 
Colonel provided some of that, but, you know, as a person who 
is dealing on a day-to-day basis with the military families, 
what are some really specific and unique factors exhibited by 
military families experiencing domestic violence?
    Ms. Ogden. Well, certainly those stressors around 
deployment and the anticipation of separation and then 
reintegration are challenges. I do think that all the military 
branches put a lot of services in place because they know those 
are stressors. So, to put things in place to do education for 
not only servicemembers but also to the family members around 
what are common things that come up as we approach this 
anticipated separation, often more conflicts arise, people will 
start emotionally kind of pushing away from one another.
    We want to help educate them that that is a normal part of 
the process. And so the more they--we can help them see that 
that is normal, and here are ways to cope with that, keep 
communication lines clear; you know, have a plan of action, 
that that can help them not see that as something--some 
personal failure or something that they are doing wrong.
    And also for reintegration, we have lots of programs to try 
to help them look at what are some of the things that have 
happened since people were away and the one family member or 
spouse that was left behind has had to run the show. So, now we 
have to find a way to fit the deployed member back into the 
family unit and what are some of the challenges with that and 
how can we give them some skills and understanding so they can 
reintegrate better.
    I think for some of those very specific challenges that 
they have as military members, there really are--because of 
that recognition by the military, there has been a lot of 
support services put in place to specifically address that.
    Senator Hirono. And of course recognizing that the military 
families do go outside of the military provider community to 
access services in the private sector, so to the extent that 
you have this kind of awareness about the specific stressors 
and how to deal with them, there is a question as to whether 
those--that kind of intelligence and information and approaches 
are shared with the private providers, and whether that could 
definitely be enhanced.
    Ms. Ogden. Sure. I think there is also room for 
enhancements. I think some of our partnerships, like say the 
local schools, to help them understand what children--how 
children are being impacted by this kind of separation. So, we 
have gone specifically to the schools and helped educate the 
administrators, the school administrators, and the teachers so 
that they can also understand some of those, you know, very 
military-specific stressors, and what they can do to help 
support the military children and families, and also so that 
they are aware of our military resources that are available.
    I think Military One Source or Tricare, as they expand 
their network of civilian providers, have also done--made 
efforts to try to educate those providers about military-
specific stressors so that they can help those civilian 
providers understand those challenges that are unique and help 
to maybe learn some of the language that I think would help 
make military families be able to feel comfortable going, you 
know, outside and working with civilian providers. I think 
there are efforts, yes.
    Senator Hirono. I will get to my second round probably, but 
my time is up, so I would like to turn to Senator Schatz for 
his questions, and then followed by Congresswoman Hanabusa.
    Senator Schatz. Thank you, Senator Hirono. My question is 
for Miss Morita and Miss Ogden. Can you describe your staffing 
structure and whether you have sufficient resources to meet the 
need?
    Ms. Morita. We actually have fairly similar staffing 
structure. What we have on our impact home centers, so those 
are social workers and nurses who do home visits to parents. We 
have educators, staff educators, who do our trainings and 
classes. We have victim advocates who provide victim advocacy 
services, as I mentioned earlier. And as well as on the 
clinical side, I might turn to Colonel Arincorayan to indicate 
his clinical staffing.
    Colonel Arincorayan. So, within our clinical staff, the 
Family Advocacy Behavioral Health is part of the behavior 
health service line. And within the behavioral service line, we 
provide an array of behavioral health services.
    An example is child and family behavioral service, patients 
that are medical home, with the behavioral health. And so there 
is--I would say we have a robust behavioral health service at 
least to provide support for family advocacy families.
    Senator Schatz. You have enough in the way of staffing?
    Ms. Morita. To answer your question, so based on the 
current case load, we are adequately resourced, but we are 
always continually assessing our situation to see as we look at 
the complexities of our cases.
    Senator Schatz. And what is the reporting structure from 
your FAP program. How does it work through the different 
branches in the service?
    Ms. Morita. In terms of reporting an incident?
    Senator Schatz. No, I mean the chain of command. I mean who 
is getting these data, who is being made aware of what is going 
on in terms of the aggregate data? Obviously, for individual 
cases, there is the question of restricted or unrestricted, but 
who is keeping an eyeball on these programs from the standpoint 
of providing services to servicemembers' families?
    Colonel Arincorayan. In our program, the Army program, it 
is not as similar as the Navy. We have prevention and the 
treatment services that are under different commands.
    The Family Advocacy, which falls under the Army Community 
Services Prevention, belongs to the installation management 
command. My service, the Behavioral Health Services, belongs to 
the medical command, falls under the Surgeon General, the Army 
surgeon general.
    Senator Schatz. Does that make sense?
    Colonel Arincorayan. At this point, it does. We would need 
to, you know, look at their review, do a review of maybe a 
bottom-up review analysis to see if it does make sense to keep 
it the way it is or----
    Senator Schatz. Okay, thank you. And then one additional 
question for Miss Morita and Miss Ogden.
    How do you develop best practices and how standardized are 
these FAP programs. Do you have flexibility to implement it as 
you see fit at each base and each installation or does this 
come from big DOD?
    My basic concern is that you want enough flexibility to 
implement according to the individual needs. On the other hand, 
there are best practices, and so you do not want each 
administrator to develop a program on full cloth. So, I am 
interested in where you get your best practices and your 
standards, and how that gets developed.
    Ms. Ogden. Absolutely, I think there is a framework that 
the DOD, OSD has said now all branches of service, you will use 
the same set of definitions, that is DOD maltreatment 
definitions. We want you to all use the same process of the 
committee that determines whether this meets those definitions 
for abuse or neglect.
    So, that is some that just--you know, just happened in the 
last several years to try to get that consistency across all 
branches of services so that DOD and OSD can really look that 
we are comparing oranges to oranges. With the Navy has this 
many members, the Army has this many, are we talking about the 
same thing?
    I think that is there, and that that has been a really 
useful thing to try to get us using all those things--
frameworks.
    But, speaking for the Navy, I can say that those best 
practices, certainly our headquarters is also looking for best 
practices, whether that is something that one, you know, 
installation started up or some new evidence-based program, so 
what they know they will certainly share and offer that with 
all of the installations.
    We are given the latitude to try things here, you know, and 
to find things that work for our specific community. Any 
command-specific, because each command can have a little 
different flavor, so absolutely, we are given that.
    Senator Schatz. Senator Hirono, if you will indulge me one 
last question, it will save me a second round. My question is 
about who is aggregating all of these data. And I think that is 
for the Attorney General.
    My concern is just as a general proposition. As we saw the 
reporting of sexual assault in the military go up, we were I 
think correctly informed that that was actually a good thing, 
not a bad thing, because of people reporting it and more public 
awareness around it. And I am not entirely sure whether the 
increase in incidences of domestic violence is as a result of 
an actual increase or an increase in services and reporting. 
And I do not think we have time to address that particular 
question, I am not sure it is knowable at this point, but the 
question of who is aggregating data and analyzing it, I think 
is not--there is no clear answer yet. Attorney General?
    Attorney General Louie. The best answer I can give you is 
the data that we are analyzing and aggregating does not 
generally include military data. We get our data from the 
police departments, prosecutors, from the judiciary. And where 
military service people come into contact with those 
institutions, then we may have some of that data.
    But, I think to the extent--I mean I do not have any links 
with the military directly. We do not get this data. I mean we 
certainly could if those channels were opened up, but right 
now, we do not aggregate any of that data on a regular 
systemized basis.
    Senator Schatz. That seems like something we ought to work 
on as a community. I mean--I will stop there. Thank you.
    Senator Hirono. Thank you, Senator.
    Congresswoman Hanabusa.
    Representative Hanabusa. Thank you, Senator Hirono. In your 
testimony, is it Colonel Arincorayan?
    Colonel Arincorayan. Yes, ma'am.
    Representative Hanabusa. Or Miss Morita, your testimony, 
you have pointed out something that I would like clarification 
on. You said there are about 15,000 married active duty 
soldiers with an average of 46 percent living on post and 54 
percent living off post.
    So, where they are living, does that affect who they may 
report more to. In other words, if you are living off post, is 
there a higher probability, for example, that if something were 
to happen, that it would be H.P.D. on Oahu, for example, that 
would be called, versus somebody within the military itself; 
versus where you are living on post, it would be something that 
would be of course covered by whatever your structure is in 
place on post?
    Ms. Morita. Well, certainly, where a servicemembers lives 
can impact where they intersect with services.
    A couple of things that might be important to note is our 
reporting process. We--there is some mandated reporting 
process. So, if a commander is aware that there has been an 
incident, they are required to report back to us on post. As 
well as we have agreements that if a member is arrested for 
domestic violence, that report gets sent to the military 
police, and then we are informed of the incident. It definitely 
has an impact in terms of maybe who is the initial responder in 
that situation.
    Representative Hanabusa. Miss Ogden, do you have any 
statistics like that as to your military and Air Force? Because 
you are representing the Joint Base.
    Ms. Ogden. Yes. We have just under 20,000 active duty Navy 
and Air Force members, and approximately 24,000 family members. 
Of those, most Air Force families, that is 83 percent 
approximately, currently live on installations. So, their first 
responders would be military law enforcement.
    Our Navy families is pretty much the opposite, where only 
14 percent of our Navy families live on installation. The rest 
would be living out on the economy or in the public, private 
venture housing, which is also the primary--while it is 
Federal, is the primary jurisdiction of H.P.D. but I know that 
they will also contact our military law enforcement folks and 
sometimes decide who will take that case further.
    Representative Hanabusa. One of the issues that we have 
always struggled with in this area has been, for example, the 
confidentiality of it. And I think it was attested to earlier 
that there was a concern about how it may then affect the job 
or the promotion structure of one spouse, whoever that spouse 
may be, in terms of military.
    So, in light of all of that, do you have any assessment as 
to whether the way it is reported, in other words, what then 
gets reported to the military police or whoever, then it goes 
up the chain to the commander, that somehow that is affecting 
the number of people who are actually seeking help. Because 
they do not want that future for their family and their spouse 
to be affected. Is that a criteria in their mind, do you see 
being played out?
    Ms. Morita. I know that one of the things that was 
developed was the restricted report for that very reason. And 
the intent behind it is that we wanted family members and 
soldiers to be able to come forward to get services without 
triggering that response, to give them time to find out what 
services are available, as well as to seek treatment. So, that 
is one of the things that the Department of Defense started was 
the restricted report to address those issues.
    Representative Hanabusa. But, is there at some point where 
that restricted report becomes unrestricted when, for example, 
there is a pattern of behavior or something like that, that it 
just automatically then, you know, you do not have the benefit 
of that protect--and the only reason I am asking this is 
because the culture of the military is very different than our 
private sector.
    What is it about that culture--and we are just finding more 
and more, as we have hearings in Washington, of what goes on 
within our unformed personnel. It must even be different and a 
greater concern among family members who do not even have that.
    So, what then would happen. Is there something that says, 
okay, at this point, you are no longer--because we know 
military personnel do not have the same kind of rights that you 
might have. Anyone know?
    Colonel Arincorayan. I am going to just answer that, ma'am. 
We--in speaking with the restricted reporting, we try as much 
as possible to remain--keep confidentiality in all the cases 
that occur. And if restricted reporting is granted to the 
victim, there may be a threshold that we will meet that we no 
longer can keep restricted reporting. It is usually when there 
is imminent harm, imminent harm to the individual as well as 
children that may be involved, then we must get commanders or 
the appropriate authorities involved to mitigate risk. And that 
is usually the time when we will break confidentiality.
    Representative Hanabusa. So, it is something that is--that 
can be broken given the set of circumstances. It is not 
something that somebody just is entitled to, they will and that 
can be broken depending on the criteria that----
    Colonel Arincorayan. Defense policy, yes.
    Representative Hanabusa. Thank you.
    Senator Hirono. Thank you. I think that we recognize, and 
particularly as both Congresswoman Hanabusa and I serve on the 
Armed Services Committee for our respective bodies, that we are 
dealing with a very unique environment with regard to the 
military. And for Attorney General Louie also, regardless of 
some numbers that we have seen that domestic violence is 
decreasing, which I find kind of astounding, that 75 percent 
decrease, you indicated that it is a problem.
    We do not necessarily know the full extent of this problem 
in either the military side or the civilian side, because just 
as sexual assault is underreported, probably this is also 
underreported. And so there is a whole other aspect of 
information and education that is part of the components of how 
we address this issue.
    So, I think for the military, thank both of you for raising 
that question of how do military victims, how safe do they feel 
in coming forward. And it is probably an issue that we could--
that I am sure the military is wrestling with. And there is 
restricted reporting for the Army. Is there restricted 
reporting in the Navy?
    Ms. Ogden. Yes.
    Senator Hirono. But, we do not know what the cause and 
effects are of putting these kinds of options available, 
whether that results in more people feeling that they can come 
forward and talk to you folks, access your services or not.
    And in fact, you know, when it comes to the issue of sexual 
assault in the military, we did get information from the 
Pentagon as to how many instances were occurring and what was 
being reported, what was being prosecuted. Is there that kind 
of data gathering with regard to domestic violence in the 
military?
    Ms. Ogden. Well, I know relatively new is going to be the 
form the data gathering will start here in October with the 
severity codes. And that is where--that is going to be first 
presented to Congress, I believe, in 2016. And that is where 
all the branches of the military are going to be able to 
partner, looking at domestic violence specifically and sexual 
assault within an intimate partner relationship. And if it 
meets criteria for abuse of moderate to severe level of abuse, 
then those cases will be--that will be in our central registry 
database that each of the branches of service have.
    And then concurrently, we will then be notifying the 
commands. The commands will know that this has been identified 
as a case where they will be looking at the servicemember's 
personnel record to then see what the command has done to take 
some action. And that can be, you know--you know, it just means 
to show that the command considered that. It does not mean they 
have to have taken a specific action.
    Senator Hirono. Excuse me, Miss Ogden. Is this requirement 
for data gathering across all services?
    Ms. Ogden. Yes.
    Senator Hirono. So, this is a directive from the Pentagon--
--
    Ms. Ogden. Yes.
    Senator Hirono [continuing]. Or from Congress?
    Ms. Ogden. And OSD is the one putting out all of the 
information on this. We are starting to gather this data, 
starting with all cases that are opened as 1 October.
    Senator Hirono. That would be helpful to your efforts. I am 
assuming this study will be made public, because the Attorney 
General has mentioned that you have no data as to what is 
happening in the military context on the incidence of domestic 
violence.
    Attorney General Louie. Yes, it stays only in the military. 
We have no data at all.
    Senator Hirono. So, I would like to ask all of you, we have 
been talking about coordinated community response, and there 
are MOU's with regard to State agencies, and there are 
different efforts being made to provide a coordinated community 
response, would you all agree that we can do better with 
bringing all the parties together, and that efforts should be 
made toward that goal?
    Colonel Arincorayan. Certainly.
    Attorney General Louie. I would certainly agree with that.
    Ms. Morita. No.
    Senator Hirono. That is called a trick question.
    No, we need to be on the same page, because this is a 
really tough community-wide problem.
    Thank you very much. If my colleagues do not have further 
questions, we will move on to Panel 2. Thank you very much.
    Senator Hirono. So, on the second panel, I will do a brief 
introduction as you are coming forward.
    While that is being set up, I would like to start by 
introducing our next panel, consisting of Nanci Kreidman. And 
she is the Chief Executive Officer of Domestic Violence Action 
Center, DVAC, and Marci Lopes.
    Nanci has been working on addressing family violence in 
Hawaii for 30 years and is widely recognized for her advocacy. 
She has been honored for her work by a number of organizations, 
including the YWCA and the National Association of Social 
Workers.
    Marci Lopes is an Executive Director of the Hawaii State 
Coalition Against Domestic Violence. Marci has a master's 
degree in counseling, psychology. And prior to serving as an 
executive director of the coalition, Marci worked with Parents 
And Children Together, a large and leading domestic violence 
service provider in Hawaii.
    Before we begin to hear testimony, I would like to swear 
you in. If you can stand and raise your hand.
    Do you affirm that the testimony you are about to give 
before committee will be the truth, the whole truth, and 
nothing but the truth?
    Ms. Kreidman. I do.
    Ms. Lopes. I do.
    Senator Hirono. All right. We will start with you, Nanci.

STATEMENT OF NANCI KREIDMAN, CHIEF EXECUTIVE OFFICER, DOMESTIC 
            VIOLENCE ACTION CENTER, HONOLULU, HAWAII

    Ms. Kreidman. Okay. Thank you very much for bringing us 
together. As I think was apparent in the first panel, there is 
a kind of a climb we can all do together. So, the opportunity 
to have our----
    Senator Hirono. I think you need to speak into the----
    Ms. Kreidman. I need to speak into the mic too, okay.
    Thank you for inviting us here today. I think, as is 
apparent to all of us during the first panel, there is some 
work we can do together. So, having our Congressional 
delegation involved in a conversation is key to moving forward.
    The Domestic Violence Action Center, you probably already 
know, provides direct services and community mobilization in 
addressing domestic violence. We have a staff of 52 who are 
dedicated to delivering direct services, professional training, 
outreach, and participating in system reform work.
    It is a complex problem, it is a costly problem, and it is 
an enormous problem that touches all of our families, as you 
have all said and our military colleagues have said. The 
Domestic Violence Action Center has been involved in almost 
every effort to examine the problem of domestic violence over 
the last nearly 25 years. And it is our intention to stay in 
the conversation. We work with thousands of families every 
year. And it has not recently occurred to us but has occurred 
to us some time ago that at least 10 percent and sometimes as 
many as 20 percent of the families we are serving at any one 
time are military families or military family members.
    And we have wanted to help conversation with the Department 
of Defense, with the Department of Justice, or military 
colleagues and our own Congressional delegation about the 
impact of serving the military community and the potential ways 
it may be tracked to serve the civilian community. This does 
not mean we are not willing to serve and work with the 
military, but it does cost us money.
    As a civilian non-profit agency, we are always yearning to 
increase our revenues. And if we can receive the support and 
the cooperation of the military, we think that would be the 
best interest of the community as a whole.
    You alluded earlier, Senator Hirono, to the data that we 
collected. After beginning a conversation which was really 
inspired by Adriana Ramelli from Sex Abuse Treatment Center at 
the VAWA planning committee, the Domestic Action Center and 
some of our other domestic violence programs designated a two-
week period of time when we were going to lift out the number 
of people that our staff serves.
    We did that. We instructed all of our staff to make an 
inquiry about who it is that they were providing safety 
planning with, who it is that they were making contacts. Our 
staff provides long-term advocacy and legal representation to 
victims of domestic violence or survivors of domestic violence. 
In that two-week period, which was September 15 through 
September 30th, safety planning was conducted 40 times.
    Safety planning is not an event; it is--rather, it is a 
process. When circumstances change, we revisit the threats to a 
person and examine what kinds of things that they may need to 
make that their safety plan. That is a very exhaustive process. 
Again, it is an important one for all the people we have 
contact with.
    Our staff made 104 contacts with the military clients that 
they were working with just during that two-week period, and 52 
additional contacts with other people out in the community. As 
people are navigating their way to safety, there are lots of 
encounters with other agencies.
    So, our work is to make sure that the rest of the people 
they are interacting with, understand the challenges, 
understand the pathway, understand the risks. That is a big 
commitment by our staff in support of the military. Again, we 
are happy to be there to be able to help our military families, 
but it comes at a cost to our civilian community, quite 
honestly.
    The other thing that is maybe a little bit delicate, but 
something that I would really like to place on the table, and 
that is depending on the branch of the military and the 
individual command, we have different degrees of cooperation 
and responsiveness.
    Some of the survivors we work with face a lot of challenges 
and many obstacles to getting safe, to getting services that 
they need, to getting their abusers held accountable. The 
opportunity to engage in greater conversation and maybe more 
collaboration in a coordinated fashion, we think would be in 
the best interest of the survivors who might be having 
difficulty with the branch or the commander.
    So, we are on board. These are just a few thoughts and 
conversation, and I hope we can continue to have. Again, my 
thanks for each of you coming and convening our community.
    [The prepared statement of Nanci Kreidman appears as a 
submission for the record.]
    Senator Hirono. Thank you.
    Miss Lopes.

  STATEMENT OF MARCI LOPES, EXECUTIVE DIRECTOR, HAWAII STATE 
              COALITION AGAINST DOMESTIC VIOLENCE,
                        HONOLULU, HAWAII

    Ms. Lopes. Thank you for this opportunity. I would briefly 
like to take a few minutes to share with you all that my father 
went to Viet Nam when I was three days old. He went on to have 
a 21-year career with the United States Army. Upon retiring 
from the Army, he has enjoyed a 25-plus-year career working for 
the VA.
    My husband also has 21 years of service to the military. 
For the past 11 and a half years, he has and continues to 
proudly serve our Air National Guard. So, I have an intimate 
understanding of the challenges many of our military families 
face.
    I am the Executive Director for the Hawaii State Coalition 
Against Domestic Violence. I started this position in March of 
this year. Our coalition is a membership of 22 organizations 
statewide. They all provide domestic violence services. Our 
mission is to engage communities and organization to end 
domestic violence through education, advocacy, and action for 
social change.
    I am speaking today about some of the life saving services 
provided to the residents of Hawaii because of the existence of 
VAWA and FVPSA.
    The island of Oahu reported to me the greatest demands on 
services being accessed by the military members and dependents. 
The island of Oahu provides aid for families from the Air 
Force, Army, Navy, Marines, Coast Guard, as well as the 
National Guard and Army Reserves. Services are not only 
accessed by legal dependents, they are also accessed by 
intimate partners who may not be married to the servicemember. 
We also have adult children and other family members who are 
accessing our services.
    Since this passage in 1984, FVPSA has remained the only 
direct Federal funding source for our shelters. FVPSA currently 
funds non-domestic violence emergency shelters statewide. I 
have to take this unique opportunity to share that our shelters 
in Hawaii are still recovering from funding cuts that they 
experienced in 2008.
    Our Molokai shelter, the most isolated of our shelters, 
reported to me this morning that they are functioning with a 45 
percent budget cut that they experienced in 2008.
    I attached in my information to you the most recent shelter 
utilization data. So, we have nine shelters, four operating on 
Oahu, two are operated by Child and Family Service, one in 
Honolulu and one in Leeward. We have one operated by Parenting 
Children Together that services families in Kaneohe. And we 
have one operated by the Women's Spouse Abuse Shelter in 
Waialua.
    The Hawaii island operates two shelters by Child and Family 
Service, one in Hilo and one in Kona. We have one shelter 
operated by the YWCA in Kauai, and one operated in Maui by 
Women Helping Women. We also have our Molokai shelter operated 
by the Molokai Community Council Hale Ho'omalu.
    There is a military shelter available on Oahu, but it is 
not staffed. Active duty and spouses can access that shelter 
after contacting the military crisis line and getting a 
referral. Victims are only allowed to stay two weeks. If they 
need additional time, that has to be approved by the chain of 
command.
    Oahu service providers have shared that many military 
victims prefer to access local shelters because they have staff 
available 24/seven, they can stay 90 days, and they do not 
trust the military restricted and unrestricted reporting 
levels.
    Victims have also reported that they are fearful that the 
perpetrators's chain of command will not be able to keep them 
safe and to hold their abuser accountable. When events occur 
off base, there are jurisdiction challenges. If the police 
department makes a report because the event took place off 
base, victims and perpetrators can choose to access services 
off base.
    If the Hawaii judicial system is involved, they can mandate 
military personnel to better intervention programs. We have two 
service providers on Oahu that provide better intervention 
services. They are Parents And Children Together and Child and 
Family Service.
    If a victim in Hawaii applies for a restraining order, a 
child welfare case is started. And so many of military families 
are also involved in child welfare services. So, we have three 
agencies who provide services for those families. Child and 
Family Service for Leeward Oahu, the Domestic Violence Action 
Center for Central Oahu, and Parents And Children Together for 
windward Oahu.
    If a military dependent child is in need of counseling 
services, they can access the Parents And Children Together, 
Family Peace Center program. The military does not have 
therapeutic groups for children at this time, but I was told 
they do have individual and counseling services for the 
families available on some facilities.
    Because of a lack of affordable housing and the inventory 
of housing in the open market, many of our victims are 
returning to their abuser or becoming homeless as a result of 
their domestic violence. The Violence Against Women Act 
provides much needed transitional housing programs on our 
island, but it is still not enough. Only three of our islands 
are benefiting from this transitional housing program.
    On Oahu, we have Child and Family Service, who is able to 
provide services for victims and their children. Parents And 
Children Together operates a transitional home for single women 
only. That is eight beds. Maui has Women Helping Women, has a 
transitional housing program that does service women and 
children. And then Hawaii island, Child and Family Service has 
a transitional housing program for victims and children.
    Oahu also receives Safe Haven and State judicial funding 
for supervised visitation centers. Visitation centers operate 
to keep children and victims safe while families are going 
through the TRO process, a custody dispute, or a highly 
conflicted divorce. If visitation is not handled properly, if 
it is children at risk for being abused, kidnapped, or further 
harm to the custodial parent, many military families are 
accessing the visitation center. They are able to provide Skype 
visits for families that are deployed or have been stationed 
off-island. So, that services is being accessed.
    And there is one center on Oahu for all of our families. 
They service over 250 families a year, over 3,000 visits. There 
is a waiting list. And families get an hour and a half visit 
per week if they are lucky.
    Senator Hirono. Can you wrap up, Miss Lopes. We have your 
full testimony.
    Ms. Lopes. I will end there. We have many dedicated service 
providers. We have a great need for legal services. And I want 
to thank you for your continued support.
    [The prepared statement of Marci Lopes appears as a 
submission for the record.]
    Senator Hirono. Thank you.
    I understand that Senator Schatz has to leave, so thank you 
very much for joining us. We can look forward together.
    This is for Miss Lopes, because you are the--you oversee a 
lot, you collect data from a number of programs, and there are 
quite a few of them, although the need is still greater than 
the resources.
    The Attorney General said that of the VAWA funding, a 
portion of it goes to you folks. And how do you decide which 
shelters or which island, how they get VAWA money or do they 
get VAWA money?
    Ms. Lopes. The coalition does not make that decision. The 
AG's office determines that. We are able to give input during 
the planning meetings.
    Senator Hirono. So, for clarification then, the Attorney 
General actually designates within the Molokai shelter who will 
get what amount?
    Ms. Lopes. FVPSA is the only one that funds shelters, and 
that is not the Attorney General's funding.
    Senator Hirono. Whatever the Attorney General funding 
decisions are, they do the decisions.
    Ms. Kreidman. It is a competitive process. Everybody makes 
a proposal, submits it to the Attorney General's office, and 
they have a process.
    Senator Hirono. I see. Thank you. So, I asked our Panel 1 
people that as we focus on the coordinated community response, 
I think you indicated that depending on which service, 
depending on which commander, because a commander of a facility 
or installations have a lot of leeway as to how things proceed 
under their command, that we could do--we could do more to 
facilitate the ability of you folks in particular to be able to 
provide the kind of services to the military people who are 
coming to you get.
    So, in your experience, we talked about in the first 
panel--well, first of all, let me ask whether you agree that we 
could do better----
    Ms. Lopes. Absolutely.
    Ms. Kreidman. Yes.
    Senator Hirono. [continuing]. However way we structure 
this. Do you think a more formal way of communicating with the 
military would help in Hawaii than what exists right now?
    Ms. Kreidman. Yes.
    Senator Hirono. With regard to the very specific 
experiences that may be stressors for domestic violence, Miss 
Kreidman, as you provide direct services, are there some very 
specific ways that you work with military victims that you may 
not do with other victims as you do your safety planning?
    For example, I was informed that you are concerned about 
the access to firearms more with the military people that you 
work with. Can you just talk a little bit about what kind of 
unique circumstances that they need to provide a different kind 
of services in the military.
    Ms. Kreidman. I think that is a trick question, too.
    Senator Hirono. It is not meant to be.
    Ms. Kreidman. There are factors that are true for all 
survivors. There are root causes that are--that exist in all 
battering relationships. The uniqueness of a military family 
member being victimized by her perpetrator has something to do 
with her isolation, her lack of familiarity with the community 
that she is in, the lack of confidence she may have in her 
husband's command, the ability to know when it is appropriate 
to ask for what, the level of lethality in the relationship 
that needs to be assessed, the kind of responsibilities and 
maybe work schedules of their partner or perpetrator needs to 
be understood.
    We do not start our assessment or our support as if they 
are very different populations. We start with the assumption 
that there is some very strong similarities between what is 
happening for the victim in the civilian community and victim 
in the military community. And then we distill out the parts of 
the relationship or the danger or the perpetrator's role in the 
military to figure out is there something special or different 
or more intensive that we must do in order to assure her access 
to the right kind of services and in the right order, and 
taking things into consideration the lethality that she is 
facing.
    Senator Hirono. So, as you are doing the safety planning, 
it sounds as though it is a very individualized process. If you 
know that you are dealing with someone from the military, 
though, does that trigger certain kinds of questions that you 
would ask regarding their particular situation and what 
concerns they may have about accessing you folks as opposed to 
the military services?
    Ms. Kreidman. Yes. It is also evident to us, because it has 
been disclosed over and over again, that they come to us 
because they do not find the military resources either safe or 
have the confidence in them because of the--earlier, we said 
that all reports are made to military police. That may or may 
not be a good thing for a particular--and the level of fear and 
terror and torment that a victim is experiencing is exacerbated 
by the lack of familiarity with the community they are in, the 
installation they are on. And----
    Senator Hirono. So, the military is concerned about how to 
deal with it, and one of the responses has been to allow for 
restrictive reporting. This could be an area, though, from a 
civilian provider, community standpoint that maybe better, 
strong communication as to what is causing the military 
families to not go to the military, maybe there are other 
approaches that could be implemented by the military to address 
the situation.
    A lot of my questions have to do with trying to understand 
what is out there and what does the military person who, as you 
say, is away from familiar surroundings, and how do they--how 
do you think they get the information as to what is available 
for them if they are the victim of domestic violence? And I am 
talking about the majority of the cases probably do not have 
police involvement or not.
    I do not know what percentage of the cases H.P.D., for 
example, on Oahu are involved or what percentage of the 
domestic violence situations are people who do not want to 
involve the police but who seek help.
    Ms. Kreidman. Well, just to give you an example, we have a 
program on site at court. Every person who is petitioning 
Family Court for a restraining order has the opportunity to 
have a conversation with a staff member from the Domestic 
Violence Action Center. The military families use our Family 
Court system in the same way that the civilian community does. 
That is one place where we would meet people who work with 
Domestic Violence Action Center so they could be referred at 
that point to additional services in the civilian community.
    If there are 54 percent of military families living off 
post, any encounter with law enforcement would be our civilian 
police. And they are certainly familiar with our domestic 
violence programs and would make referrals to our domestic 
violence programs.
    I am not as well acquainted with how the--how the 
communication goes or the collaboration occurs between the 
Honolulu Police Department and the military base, although I 
know that there is improved communication among them.
    Senator Hirono. I am told that if H.P.D. is involved and if 
there is an arrest, then that information goes to the command. 
My time is up.
    Now, Congresswoman Hanabusa.
    Representative Hanabusa. Thank you, Senator. Nanci, let 
us--first of all, I just want to say it is typical of you to 
just cut to the chase; that if we do more military, it is going 
to take away from civilian. And that really is--that really is 
a concern. I mean, I can see that.
    But, can you give me an idea of how much--as you are 
gathering data, how much of the numbers that you would service 
or potentially could be servicing could have the military 
relationship. Do you have any idea of what that might be as you 
are now being more sensitive in gathering this particular piece 
of data?
    Ms. Kreidman. I am not sure I understand your question. I 
am thinking that if we are serving 15 percent of our people at 
any given time, our military family members----
    Representative Hanabusa. Right.
    Ms. Kreidman [continuing]. If we had funds, we could 
increase our resources so that we could also be serving 15 
percent of the civilian community whose cases we cannot open or 
accept.
    Representative Hanabusa. That is exactly what I was 
thinking about. Because what you were saying was you know, if 
you handle the military, which is not something I am objecting 
to, but it also means you cannot handle this civilian 
population. There is no compensation is what I heard. So, it is 
about 15 percent or something like that.
    I guess I am trying to figure out, the resources are 
limited all the way around, but it seems like if it is a 
service that is being provided, that it is a service that 
should be compensated somehow, because you get it back. I 
mean----
    Ms. Kreidman. I am not sure even if the military branches 
have specialized legal services for those victims of domestic 
violence in the same way that we do.
    Representative Hanabusa. Right.
    Now, the other thing that I was reading in your testimony 
that caught my eye was when you said from 2009 to 2014, 37.2 of 
all divorce cases sampled in the State Judiciary, at least one 
member was military. And I just want to be clear, when you 
define military, was the definition of the military used active 
duty versus Guard and Reserve. Do you see the difference that I 
am trying to draw?
    Ms. Kreidman. I think it is both.
    Representative Hanabusa. It is both.
    Ms. Kreidman. I think it is both. That came out of a report 
issued by----
    Representative Hanabusa. Right, I saw it here.
    Ms. Kreidman [continuing]. Family Court. Yes.
    Representative Hanabusa. So, do you know or are you 
familiar enough with the report to know, though it may be, you 
know, no-fault divorce, whether how many of them may have been 
related to issues of domestic violence. Do you have any idea. 
If you do----
    Ms. Kreidman. I do not know.
    Representative Hanabusa. I am going to move now to Marci. 
And, Marci, I want to thank you for your testimony because you 
are very detailed in the military impact.
    The one thing that I was wondering about, because it seemed 
like given the nature of the military families, especially 
those active duty in a new place, you know, because they serve 
two to three years max and are moving on, that you did mention 
that there is just one shelter available, but there is no one 
that staff that is shelter. Right?
    And yet, we do know, and then you also said that the FVPSA 
program is the only one that funds shelters. Yet, we all know 
that VAWA funds transitional housing. So, is transitional 
housing once the person decides to move completely out versus a 
sheltered situation?
    Ms. Lopes. It could be either one. They could go from an 
emergency shelter to transitional; or if they are working with 
an advocate that is unable to refer them directly to the 
transitional housing program, that can happen. And sometimes 
DVAC or Hawaii Immigrant Justice Center, they have advocates 
working on legal issues with them and they are able to get them 
into transition.
    Representative Hanabusa. Because it would seem that for a 
military person who is being abused and needs shelter, that 
they need to be out of that situation. But, as was testified, 
they find themselves returning because there is no alternative, 
there is no family structure here. For most cases, they are 
isolated. And, where do they turn to? So, it is almost like 
forcing them back into the situation. Would that be a correct 
assessment?
    Ms. Lopes. Yes, ma'am.
    Representative Hanabusa. Another thing you said is that 
they do not trust the chain of command; that the chain of 
command--it is almost like an assumption that the chain of 
command will protect whoever is in the service, and they do not 
feel that they will be in any way protected from that. Is that 
the sense that you are getting from the military?
    Ms. Lopes. The majority of the victims, yes.
    Representative Hanabusa. So, this is not a trick question. 
In a situation like this where we do, and you went to great 
detail to show your understanding of being a member of a 
military family, plus a spouse of somebody who has very strong 
military ties, now what do you do then? I mean, how do you 
address something as fundamental as where do they turn?
    Ms. Lopes. I think we have a unique situation here in 
Hawaii because we are so isolated. The coalition operates a 
program called Flight To Freedom. And if we do have victims 
that need to leave the island because they are in imminent 
danger, we use our funds to help them, fly them to their family 
and their support system.
    Representative Hanabusa. So, it is putting them back into 
their 'ohana, in other words?
    Ms. Lopes. Yes.
    Representative Hanabusa. And is that the most effective way 
that you have found, in the experiences that you have for 
those, that clearly this would probably be a category that does 
not qualify, restricted report would probably be unrestricted. 
But, is this the best solution for them?
    Ms. Lopes. It depends on their safety; if they are really 
terrified and they feel that their life's in danger, they want 
out of here as quickly as possible.
    But, I also have to note that the past two to three years, 
we have seen many women meet servicemembers online. And they 
are flying over here to Hawaii, depleting all of their savings, 
and finding out that this person is an abuser. And now they are 
stranded here in Hawaii and they are accessing our shelters, 
and we are trying to get them back. That is also a challenge 
that we are having right now.
    Representative Hanabusa. Can you give us an idea of how 
many of these Flights To Freedom in a particular year, or 
however you keep your data, and where do you find the money?
    Ms. Lopes. We solicit foundations, private grants. And 
after speaking with Cody, we learned the value that we should 
be tracking how many military servicemembers we are providing 
this to. But, it is a very special fund that we use.
    And after we purchase the tickets, we try and destroy any 
evidence that we ever made this purchase. And so we have the 
total numbers of tickets that we purchased, but we do not keep 
any identifying information. I do not have the numbers in my 
mind right now, but we can get that to you.
    Representative Hanabusa. Okay. So that is the ultimate that 
they can look to?
    Ms. Lopes. Immediately.
    Ms. Kreidman. That is also negotiation that occurs around 
early return of dependents that is sometimes employed when a 
person needs to leave.
    Representative Hanabusa. Thank you.
    Thank you, Senator.
    Senator Hirono. Okay, back to the Flights To Freedom. So, 
did you say that you do not have the information as to how much 
your organizations have spent to return spouses?
    Ms. Lopes. We have the total, but we have not been keeping 
track of which are military dependents. We have not been 
keeping that data. We recently started tracking that.
    Senator Hirono. And you use your own resources to return 
abused persons to a much more supportive environment?
    Ms. Lopes. Yes.
    Senator Hirono. And, Nanci, you are right that the military 
does have an early release of dependents which is similar to 
return the dependents to a much safer situation. So, that has 
been another one of the military's responses in how to best 
provide that.
    Ms. Lopes. And I believe that is only if they are married 
dependents.
    Senator Hirono. There may be restrictions, and this could 
be yet another identifying of how best the civilian and the 
military community can work together.
    I am having difficulty figuring out whether there are 
overlaps to the services provided by the civilian side and the 
military side. Do the people come to you. Basically, they just 
come to you, they are not accessing the military services?
    Ms. Lopes. If a victim calls the shelter and is taken into 
a shelter, if she discloses that she would like the shelter 
advocates, the local advocates, to work with the family 
advocacy programs, they will. But, that is completely up to the 
victim. It is her decision.
    Senator Hirono. So, if the victim chooses to use the FAP 
program, then you do not provide the services that FAP is 
providing to that person.
    Ms. Lopes. Right.
    Ms. Kreidman. That is entirely the same for us. Sometimes 
we work very closely with the Family Advocacy Program. And some 
of the services that we provide are a little bit different, so 
we try. It is entirely up to the survivor, where she wants to 
get help and in what ways. Sometimes there is a good 
collaboration between the Domestic Violence Action Center and 
the Family Advocacy Program, sometimes not so for a variety of 
different reasons. There is not really duplication. Sometimes 
there is cooperation, and sometimes they come to DVAC and that 
is all that they--the entirety of their support.
    Senator Hirono. It has been mentioned by all of us many 
times that the resources are scarce. And while you are great at 
raising money and advocating for that, let us assume there will 
be no additional funds. And in fact, I believe that Attorney 
General in his testimony said the VAWA funding has not 
increased in five years, even as we have expanded, by the way, 
the groups and people that VAWA will not protect. So, we have 
to be very creative here.
    What would you say would be the biggest challenge that you 
would like to have a coordinated community response team 
address with regard to your ability, your group's ability, to 
help servicemembers of families?
    Ms. Kreidman. I think I need to understand what we mean 
when we use the phrase coordinated community response. Who 
comes to the table, what is the work we are doing together. 
What are the expectations that everybody brings when they come 
to the table. What can we agree on. What is the work that needs 
to be forged so that we are not duplicating services and we are 
cooperating?
    I do not really know exactly what we mean by a coordinated 
community response between civilian and the military 
communities. Maybe that is a first step.
    Senator Hirono. Yes.
    Ms. Kreidman. Again, since we have got five different 
branches of the military and each one of them is their own 
little domain, that in and of itself is a kind of a challenge. 
The Army may want to approach it one way, the Marines may want 
to approach it in a different way, the Air Force may want to 
approach it in a different way.
    So, is the coordination among the branches and the civilian 
community or is the coordination between a branch and a 
civilian community. I am not entirely certain.
    Senator Hirono. I would say that this is why going forward, 
it does behoove us to at least use the same terminology and 
come to a common understanding. Would you want to add anything 
to what Miss Kreidman has said?
    Ms. Lopes. I believe that the military has lots of training 
resources that we could better utilize.
    Senator Hirono. Training resources?
    Ms. Lopes. They bring excellent trainers over. But, we have 
not been able to coordinate. I think it is a goal. And Cindy 
recently joined our fatality review team, and she has been able 
to share now some of the training resources that we have. I 
think that is an easy way that we can start coordinating.
    Senator Hirono. So, as you sit there, Nanci, this is--or we 
are going to be ending this hearing earlier, and which is good, 
yes, and--good.
    As you are thinking about there are some ways that we can 
move things along, feel free. I will turn to Congresswoman 
Hanabusa for additional questions.
    Representative Hanabusa. Thank you. I just--I am kind of 
stuck. The reason I am stuck is because I am trying to 
understand this from the perspective of the victim or the 
person who is seeking help. And that person who seeks help, 
Nanci, you said DVAC may be the only----
    Ms. Kreidman. Right.
    Representative Hanabusa [continuing]. Agency that they 
choose to go with. And it seems like at some point that if you 
are coordinating, that it would--and if we are, quote, getting 
compensated for expenses, which is a logical thing to happen, 
but then the question becomes what about the person who is 
seeking the help? If that person does not want anything--any 
knowledge of this to go back to the military, for whatever that 
reasons may be, and wants to just seek help from DVAC or from 
one of your groups, how do we do that? Because it seems like in 
the process, we are losing sight of the person who is seeking 
the help.
    Ms. Lopes. We would never disclose any military connections 
or information if she did not want us to. It would only be if 
she preferred that we contact them. She can completely come and 
access all of our member programs with complete 
confidentiality.
    Representative Hanabusa. No, I agree. But, the reality of 
how do you then do the funding, right. How do you get 
compensated for that. As Nanci put it so aptly, as she does, in 
the beginning, taking money away as a community, not that the 
community does not want to, but you are limited; everybody is 
limited in the amount of resources. And it would seem that this 
is something that you are doing a service to the military as 
well.
    But, you know, that is the difficulty that I am having. And 
I am not sure that the military would be willing to just pick a 
number. We have three this month, take our word for it, we will 
sign an affidavit that we have three this month.
    Do you understand what I am getting at. I am just trying 
figure out how does the person fit into what we are talking 
about?
    Ms. Kreidman. A person might have sought assistance from 
the military several times and did not get the outcome that was 
supportive to her, at which point she may seek help someplace 
else. Sometimes that is how we get our military family member 
survivor clients.
    I do not know. I think we have to figure that out. Through 
the coordination, and through the cooperation, and through the 
increased and improved communication, we might figure out how 
to report. We report to other funding sources lots of details 
without disclosing who the clients are that we are serving.
    Representative Hanabusa. Because I think for a lot, if a 
client is seeking help from you and wants that level of 
confidentiality, it probably has to do with the spouse, and not 
wanting that spouse to be affected in any way, you know, that 
which may or may not be--it is probably not good for the 
military not to know. You know, they should know if they have 
somebody who is abusing or something. And as a result of that, 
they should know. But, yet, it is this tension.
    I do not know what the answer is. I threw it out. Thank 
you.
    Thank you very much, Senator.
    Senator Hirono. So, as with sexual assault, we want to 
encourage reporting in the civilian community as well as in the 
military community. And I think it is also important to keep in 
mind that the military, they are very much a part of our 
community, and they should be able to access services wherever 
they feel comfortable. When we get down to some of the nitty-
gritty of how the resources can come together to do as best as 
we can, then that is another matter for a coordinated response.
    It is very clear that this is a very complicated situation. 
It is very complicated, with no easy solutions. And so as we go 
forward, I do ask our military colleagues who are here and our 
civilian community for cooperation as we go forward, because, 
you know, as I mentioned in my opening statement, I do 
anticipate moving forward with a collaboration model that is 
more than you all should be talking together more.
    All right. I would like to see a model that can be 
implemented. And we are certainly--I certainly will be 
interested to know if other jurisdictions have models that we 
can follow. And there must be, because when VAWA was first 
enacted, it did have the military collaboration component as 
part of a community response.
    It takes willing hearts to go there. And as I close this 
hearing, I do want to thank all of you for being here. It is a 
community-wide issue. And we will go forward together with as 
much frankness as we can so that we can, first of all, 
understand what we are dealing with, and how we can do a more 
effective job with the limited resources that we all have.
    The minutes or the record of the hearing will remain open 
for another week so any community persons, any legislators, 
anyone who wants to submit further testimony or statements to 
the committee, can do so in one week.
    And with that, I thank all of you, and adjourn this 
hearing.
    [Whereupon, at 11:51 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
